No. 21-406
IN THE

Supreme Court of the United States
IMPAX LABORATORIES, INC.,
v.
FEDERAL TRADE COMMISSION,

Petitioner,

Respondent.

On Petition for a Writ of Certiorari to the United
States Court of Appeals for the Fifth Circuit
BRIEF FOR THE ASSOCIATION FOR ACCESSIBLE
MEDICINES AS AMICUS CURIAE
SUPPORTING PETITIONER
JEFFREY K. FRANCER
KARIN HESSLER
ASSOCIATION FOR
ACCESSIBLE MEDICINES
601 New Jersey Ave., NW
Washington, DC 20001
WILLIAM E. EVANS
GOODWIN PROCTER LLP
100 Northern Ave.
Boston, MA 02210

BRIAN T. BURGESS
Counsel of Record
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N St., NW
Washington, DC 20036
bburgess@goodwinlaw.com
(202) 346-4000

Counsel for Amicus Curiae
October 15, 2021

TABLE OF CONTENTS
INTEREST OF THE AMICUS CURIAE ................... 1
INTRODUCTION ....................................................... 3
ARGUMENT ............................................................... 7
I.

The Fifth Circuit’s Endorsement of the
FTC’s Quick-Look-Style Presumptions
Contradicts Actavis. ...................................... 7
A. The Fifth Circuit and FTC Wrongly
Presume That a “Payment’ Is
Unjustified and Ignore Overwhelming
Evidence of Patent Strength. ..................... 8
B. The FTC’s Approach Wrongly
Presumes that Patent Cases Can
Always Settle Without Any Exchange
of Value. .................................................... 11

II.

Because the Fifth Circuit and FTC’s
Presumption of Illegality Will Discourage
Procompetitive Settlements and Harm
Consumers, Immediate Review Is
Warranted.................................................... 14
A. Lower Courts Have Expanded the
Types of Patent Settlements Subject to
Antitrust Scrutiny. ................................... 15
B. Settlements Are a Crucial Tool for
Generic Manufacturers to Clear
Through the Patent Estates Brands
Have Erected............................................. 17

CONCLUSION ......................................................... 21

i

TABLE OF AUTHORITIES

Page(s)

CASES:
Asahi Glass Co. v. Pentech Pharms., Inc.,
289 F. Supp. 2d 986 (N.D. Ill. 2003) ................. 16
Duffy Tool & Stamping, L.L.C. v. NLRB,
233 F.3d 995 (7th Cir. 2000) ............................. 13
FTC v. AbbVie Inc.,
976 F.3d 327 (3d Cir. 2020) ............................... 16
FTC v. Actavis, Inc.,
570 U.S. 136 (2013) ................................... passim
In re Intuniv Antitrust Litig.,
496 F. Supp. 3d 639 (D. Mass. 2020) ................ 16
King Drug Co. of Florence, Inc. v.
SmithKline Beecham Corp.,
791 F.3d 388 (3d Cir. 2015) ......................... 15, 16
In re Lipitor Antitrust Litig.,
868 F.3d 231 (3d Cir. 2017) ............................... 16
In re Loestrin 24 Fe Antitrust Litig.,
814 F.3d 538 (1st Cir. 2016) ................................ 8
Nat’l Collegiate Athletic Ass’n v. Alston,
141 S. Ct. 2141 (2021) ............................. 9, 12, 14
Ohio v. Am. Express Co.,
138 S. Ct. 2274 (2018) ................................. 11, 12

ii

Ohio Willow Wood Co. v. Thermo-Ply, Inc.,
629 F.3d 1374 (Fed. Cir. 2011)...................... 1, 19
In re Xyrem (Sodium Oxybate) Antitrust
Litig.,
No. 20-MD-02966-LHK, 2021 WL
3612497 (N.D. Cal. Aug. 13, 2021) ................... 17
STATUTES:
35 U.S.C. § 282(a) ..................................................... 4
FTC BRIEFS:
Brief of FTC as Amicus Curiae, King Drug
Co. of Florence v. SmithKline Beecham
Corp.,
No. 14-1243 (3d Cir. filed Apr. 28, 2014) .......... 15
Brief of FTC as Amicus Curiae, In re Lipitor
Antitrust Litig.,
No. 14-2071 (1st Cir. filed June 25, 2015) ........ 15
OTHER AUTHORITIES:
Association for Accessible Medicines,
The U.S. Generic & Biosimilar Medicines
Savings Report (Oct. 2021) ................................. 3
Anne S. Layne-Farrar, The Cost of Doubling
Up: An Economic Assessment of
Duplication in PTAB Proceedings and
Patent Infringement Litigation,
10 LANDSLIDE 1 (2018). ..................................... 19
Big Molecule Watch: FDA Approvals, Goodwin Procter (last updated Sept. 26, 2021) ........ 19
iii

Biosimilars Council, Failure to Launch:
Patent Abuse Blocks Access to
Biosimilars for America’s Patients
(June 2019) ............................................ 17, 18, 19
Howard Raiffa et al., Negotiation Analysis:
The Science and Art of Collaborative
Decision Making (2002) ..................................... 13
I-MAK, Overpatented, Overpriced: How
Excessive Pharmaceutical Patenting Is
Extending Monopolies and Driving up
Drug Prices (2018) ............................................. 18
Michael L. Moffit, Pleadings in the Age of
Settlement, 80 Ind. L. J. 727 (2005) .................. 13
RBC Capital Mkts., Pharmaceuticals:
Analyzing Litigation Success Rates
(Jan. 15, 2010) ..................................................... 4
Roger Fischer, William Ury & Bruce Patton,
Getting to Yes (3d ed. 2011) ............................... 13
Statement of Chester “Chip” Davis, Jr. to
the House Energy and Commerce Subcommittee on Health Hearing on “Lowering the Cost of Prescription Drugs: Reducing Barriers to Competition”
(Mar. 13, 2019) ........................................ 3, 18, 19
Sy Mukherjee, Protect at all costs: How the
maker of the world’s bestselling drug
keeps prices sky-high, FORTUNE
(July 18, 2019). .................................................. 18
iv

U.S. Food & Drug Administration,
Press Release, Remarks from FDA
Commissioner Scott Gottlieb, M.D., as
prepared for delivery at the Brookings
Institution on the release of the FDA’s
Biosimilars Action Plan (July 18, 2018) ........... 18

v

INTEREST OF THE AMICUS CURIAE 1
The Association for Accessible Medicines (“AAM”) is
a nonprofit, voluntary association representing manufacturers and distributors of generic and biosimilar
medicines and bulk active pharmaceutical chemicals, as
well as suppliers of other goods and services to the generic pharmaceutical industry. AAM’s members provide patients with access to safe and effective generic
and biosimilar medicines at affordable prices. AAM’s
core mission is to improve the lives of patients by
providing timely access to safe, effective, and affordable
prescription medicines. Generic drugs constitute more
than 90% of all prescriptions dispensed in the United
States, yet generics account for only 18% of total drug
spending. AAM regularly participates in litigation as
amicus curiae.
AAM and its members have a significant interest in
the questions presented by the petition for certiorari.
In the course of developing and bringing to market
competitively priced generics and biosimilars, AAM’s
members must often engage in patent litigation with
brand-name manufacturers. These cases “are among
the longest, most time-consuming types of civil actions.”
Ohio Willow Wood Co. v. Thermo-Ply, Inc., 629 F.3d
1374, 1376 (Fed. Cir. 2011) (Moore, J., concurring).
They are also exorbitantly expensive, with the average
case costing millions for each patent in controversy.
AAM provided timely notice of intent to file this brief, and all
parties have consented to the filing of this brief. No counsel for a
party authored this brief in whole or in part, and no person other
than amicus curiae, its members, or its counsel made a monetary
contribution to the brief’s preparation or submission.
1

2
And the litigation burden has continued to accelerate
over the past decade, as brand manufacturers have obtained more and more patents covering their products,
thus requiring a manufacturer of generic or biosimilar
medicines to overcome numerous patents on a single
product in order to come to market.
Given the high costs and uncertainty associated
with patent litigation, settlement is a critical tool for
advancing generic and biosimilar competition. This
Court’s decision in FTC v. Actavis, Inc., 570 U.S. 136
(2013), recognized that a certain type of settlement—a
“large, unjustified reverse payment” from the brand
company to the generic manufacturer—is subject to antitrust review. Id. at 158. But the Court also stated
that its holding should not “prevent litigating parties
from settling their lawsuit,” and it squarely rejected the
Federal Trade Commission’s argument in favor of “a
quick look” mode of review that would treat these settlements as “presumptively unlawful.” Id. at 158-159.
In the years since, however, the FTC has tried to retract the safeguards in Actavis, reimposing a “quick
look” standard of presumptive illegality in all but name.
This case is a high-water mark of that improper approach. The FTC cast aside the real-world evidence
that the settlement in this case plainly was procompetitive—the settlement allowed Petitioner Impax Laboratories, Inc. to enter the market years before the expiry
of patents that were later found to be valid in separate
litigation—by refusing to consider the strength of the
patents at issue and adopting what amounts to a categorical presumption that the competitive benefits of patent settlements can always be achieved without an exchange of value from the brand to the generic. By
blessing the FTC’s misguided approach, the Fifth Cir-

3
cuit decision below stretches Actavis past its breaking
point, jeopardizing the ability of AAM’s members to enter procompetitive patent settlements that provide patients with access to lower-cost generic and biosimilars.
This Court’s review is urgently needed.
INTRODUCTION
Access to affordable and safe medication is critical to
the national economy and the health of every American.
AAM’s membership is committed to ensuring that competitively priced and effective medicines remain available in the market. The numbers prove the importance
of this mission: over roughly the past decade, generics
have saved customers nearly $2.4 trillion. 2 And FDAapproved biosimilars—highly similar or interchangeable versions of brand-name biologic medicines—could
save customers tens of billions of dollars more in the
coming years. 3
In order to bring lower-cost generic and biosimilar
medicines to the public, AAM members must first run
the gauntlet of notoriously expensive and lengthy patent litigation. When those multi-million-dollar cases
are litigated to judgment, generic manufacturers prevail less than half of the time, in which case the generic
AAM, The U.S. Generic & Biosimilar Medicines Savings Report 6 (Oct. 2021), https://accessiblemeds.org/sites/default/files/
2021-10/AAM-2021-US-Generic-Biosimilar-Medicines-SavingsReport-web.pdf (“Savings Report”).
2

Savings Report, supra, at 17; see also Statement of Chester
“Chip” Davis, Jr. to the House Energy and Commerce Subcommittee on Health Hearing on “Lowering the Cost of Prescription
Drugs: Reducing Barriers to Competition” 1-2 (Mar. 13, 2019),
www.congress.gov/116/meeting/house/109107/witnesses/HHRG116-IF14-Wstate-DavisC-20190313.pdf (“Davis Statement”).
3

4
medicine cannot enter the market until patent expiry.
RBC Capital Mkts., Pharmaceuticals: Analyzing Litigation Success Rates 4 (Jan. 15, 2010),
https://amlawdaily.typepad.com/pharmareport.pdf. The
ability of AAM members to enter settlements to resolve
those disputes is thus a critical tool for generic and biosimilar entry, allowing AAM members to begin marketing their medicines before patents covering the brand
medicine expire—patents that the law treats as presumptively valid, see 35 U.S.C. § 282(a).
This Court in Actavis “recognize[d] the value of settlements and the patent litigation problem,” and it
“concede[d] that settlement on terms permitting the patent challenger to enter the market before the patent
expires … bring[s] about competition, … to the consumer’s benefit.” 570 U.S. at 153-154. The Court nonetheless held that a narrow category of patent settlements—those that included a “large, unjustified reverse
payment”—could be subjected to antitrust review. Id.
at 158. But in doing so, the Court cautioned that its
holding should not be understood to “prevent litigating
parties from settling their lawsuit.” Id. Significantly,
the Court rejected the FTC’s proposal to treat “reverse
payment settlement agreements as presumptively unlawful,” holding that the FTC must proceed under the
standard “rule of reason” that governs antitrust review
of most agreements, rather than relying on a “quick
look” to confirm illegality. Id. at 159.
But while purporting to act within this Court’s
framework, the FTC has steadily pushed the law back
in its own preferred direction by unduly narrowing the
rule-of-reason inquiry and imposing categorical restrictions that are no different in practice from a presumption of illegality. This case makes that plain. It is

5
undisputed that the challenged settlement allowed Impax to sell its generic version of Opana ER at least a
decade before the expiration of the last of the brand
manufacturer’s patents on the product—patents that
were upheld as valid in litigation against other generic
drug companies, which are enjoined from selling their
versions until 2023. See Pet. 1, 11-12. Yet the FTC
failed to meaningfully engage with the settlement’s actual effects on competition, and relied instead on two
categorical presumptions that together decisively stack
the deck in favor of liability. First, the FTC treated an
exchange of value that exceeded litigation costs and the
fair value of services as inherently suspect. Indeed, it
refused to look at case-specific justifications for the settlement, including significant evidence that the brand’s
patents were strong and would have blocked generic entry for years if the case had been litigated to judgment.
Second, the FTC discounted the procompetitive benefits
of the settlement by relying on sweeping generalizations about “industry practice” and “economics” to conclude that a settlement without a payment is always
possible—despite real-world evidence from this case
that the parties would not have bridged their differences without a transfer of value because the brand
manufacturer, Endo Pharmaceuticals, Inc., refused to
budge on an earlier entry date.
Considered as a whole, the FTC’s approach dilutes
the rule-of-reason framework beyond recognition, resulting in an effective presumption that any patent settlement with an alleged payment exceeding litigation
costs is illegal—precisely the FTC position that the
Court rejected in Actavis. 570 U.S. at 158-159. And by
effectively endorsing the FTC’s “quick look” redux, the
Fifth Circuit’s decision here means that manufacturers
of generic medicines risk liability anytime an early-

6
entry settlement can be characterized as including a
“payment,” no matter how procompetitive the settlement is as a whole.
The implications of resuscitating “quick look” review
in this context are far-reaching. Indeed, developments
since Actavis only magnify the negative impacts from
an overbroad rule that treats many pharmaceutical patent settlements as presumptively anticompetitive. On
the one hand, the risk of incurring antitrust liability
when settling a patent case has grown considerably, as
lower courts—urged on by the FTC as both litigant and
adjudicator—have adopted increasingly expansive definitions of what counts as a “payment” that might trigger Actavis scrutiny. On the other, the need for generic
manufacturers to find a path to settlement is greater
than ever, as generic companies increasingly must
overcome dozens of patents on each brand medicine before they can bring a product to market.
The upshot is that, absent this Court’s review, the
costs and risks AAM’s members must bear to offer generic and biosimilar competition will rise dramatically,
and patients across the country will pay the price. That
is precisely the opposite result that Actavis and the antitrust laws mean to encourage. The Court should
grant certiorari and reverse, and, in doing so, should
clarify the scope and application of Actavis.

7
ARGUMENT
I.

The Fifth Circuit’s Endorsement of the
FTC’s Quick-Look-Style Presumptions Contradicts Actavis.

Actavis established baseline principles for antitrust
scrutiny of patent settlements that otherwise fall within a patent’s exclusionary scope. For such settlements
to give rise to potential antitrust liability at all, they
must include an apparently “large and unjustified”
payment. Actavis, 570 U.S. at 158. Even then, such
settlements are not “presumptively unlawful,” because
their “complexities” make any bright-line antitrust rule
inappropriate. Id. at 158-159.
For that reason, the Court in Actavis expressly rejected the FTC’s preferred quick-look approach and refused to otherwise shift the initial burden of proof to
the defendant. Instead, the FTC “must prove its case
as in other rule-of-reason cases.” Id. at 159. And in
applying the rule-of-reason framework, lower courts
must consider the full factual circumstances surrounding the payment—including “its size, its scale in relation to the payor’s anticipated future litigation costs, its
independence from other services for which it might
represent payment, and the lack of any other convincing justification”—to determine whether the payment
truly is both “large and unjustified.” Id. at 158-159
(emphasis added).
The Fifth Circuit’s decision, affirming the order of
the FTC, turns those principles on their head. In place
of the rule of reason, the Fifth Circuit and the FTC
have substituted a thinly-disguised version of the
quick-look approach that the Court rejected in Actavis.

8
A.

The Fifth Circuit and FTC Wrongly
Presume That a “Payment’ Is Unjustified and Ignore Overwhelming Evidence of Patent Strength.

The decision below breaks from Actavis by reviving
in all but name the quick-look approach that the FTC
sought and this Court explicitly rejected. The Fifth
Circuit held that the FTC met its burden at the first
step of the rule of reason simply by showing that there
was a net transfer of value from the brand to the generic that exceeded “avoided litigation costs.” Pet. App. 1617. Actavis, however, requires plaintiffs to show the
exchange of value is both “large and unjustified.” Actavis, 570 U.S. at 158 (emphasis added). Simply showing that the payment is “large” because it exceeds
“avoided litigation costs,” Pet. App. 16, is not enough.
Rather, as the Court recognized, “[t]here may be other
justifications” for the inclusion of a payment in a settlement that eliminate any antitrust concern. 570 U.S.
at 156; see also In re Loestrin 24 Fe Antitrust Litig., 814
F.3d 538, 552 (1st Cir. 2016) (“[T]he plaintiffs must allege facts sufficient to support the legal conclusion that
the settlement at issue involves a large and unjustified
reverse payment[.]” (emphasis added)).
The strength of the patent (or patents) at issue can
be one such “other justification” that takes away “the
risk of significant anticompetitive effects” from a reverse-payment settlement. Actavis, 570 U.S. at 158.
After all, the only reason pharmaceutical patent settlements sometimes raise antitrust concerns is that the
patents at issue “may or may not be valid, and may or
may not be infringed”—if the patents are valid and infringed, then any alleged exchange of value falls within
the scope of the lawful patent monopoly conferred by

9
Congress. Id. at 147; see id. at 163 (Roberts, C.J., dissenting) (recognizing that the Court declined to endorse
antitrust immunity for all actions within the exclusionary scope of a patent because of the “uncertainty” about
whether a patent is valid and infringed). To nonetheless ignore patent strength, as the FTC and the Fifth
Circuit did here, would both “defeat[] the point of the
patent, which is to confer a lawful monopoly on its
holder,” id. at 171, and also depart from rule-of-reason
analysis. The rule of reason focuses on the “challenged
restraint’s actual effect on competition.” Nat’l Collegiate Athletic Ass’n v. Alston, 141 S. Ct. 2141, 2151
(2021) (emphasis added) (citation and internal quotation marks omitted). Accordingly, in a case where there
is strong reason to believe that litigation would have
produced a finding of patent infringement and validity,
a settlement that allows a generic to launch well before
expiration of the brand patents is not anticompetitive,
because its actual effect is to increase competition by
allowing generic entry earlier than would otherwise
have been possible.
This case illustrates the point. The settlement at
issue permitted Impax to launch its generic version of
Opana ER on January 1, 2013—ten years before any
other generic will be able to enter the market, because
the other generics chose not to settle, lost on their invalidity defenses against Endo’s infringement claims, and
have been enjoined from entering the market before
2023. Pet. 1, 11-12; pp. 4-5, supra. For the Fifth Circuit to nonetheless endorse the FTC’s conclusion that
the Endo-Impax settlement was “unjustified” within the
meaning of Actavis, on the theory that the settlement
“prevent[ed] the risk of competition,” Pet. App. 16, ignores reality. Indeed, the imposition of liability under
the facts of this case—where the patents subject to the

10
suit were “ultimately declared valid”—is an “absurd result[].” Actavis, 570 U.S. at 172-173 (Roberts, C.J., dissenting). “Under th[at] approach, a patent holder may
be found liable under antitrust law for doing what its
perfectly valid patent allowed it to do in the first
place[.]” Id. at 173. And a generic manufacturer may
be found liable for achieving a settlement that benefits
competition and patients merely because it accepted
compensation to secure an early entry date rather than
press forward to a likely defeat.
The Fifth Circuit suggested that this result flows
from Actavis itself, which the Fifth Circuit interpreted
to reject any requirement that the FTC ever need consider “the likely outcome of the patent case in order to
find anticompetitive effects.” Pet. App. 18. But such
reasoning sweeps far more broadly than what this
Court endorsed. On any fair reading, Actavis offers no
support for a categorical refusal to consider patent
strength. To be sure, the Court reasoned that it is
“normally not necessary to litigate patent validity to
answer the antitrust question,” and the Court recognized that, in some cases, “the size of the unexplained
reverse payment can provide a workable surrogate for a
patent’s weakness.” Actavis, 570 U.S. at 157-158 (emphasis added); see also id. at 158 (“[A] court, by examining the size of the payment, may well be able to assess
its likely anticompetitive effects along with its potential
justifications without litigating the validity of the patent[.]” (emphasis added)). But those carefully qualified
statements do not suggest, as the Fifth Circuit held,
that patent strength is never relevant to the rule-ofreason analysis. And it is simply illogical to treat the
mere existence of an exchange of value as irrebuttable
proof that a patent was weak when there is an actual

11
decision by an Article III judge determining that the
same patent is indeed valid. 4
B.

The FTC’s Approach Wrongly Presumes that Patent Cases Can Always Settle Without Any Exchange
of Value.

The Fifth Circuit, by adopting the FTC’s approach,
did not just undermine Actavis at the first step of the
rule of reason. The court effectively short-circuited the
last two steps of the analysis, too, by blessing the FTC’s
view that any exchange of value never really benefits
competition, because parties can always settle their patent dispute without that exchange. The adoption of
this effectively irrebuttable presumption once again
contradicts the rule-of-reason analysis that this Court
prescribed, and it is divorced from real-world settlement practice.
Under the rule of reason, if the plaintiff satisfies its
“initial burden to prove that the challenged restraint
has a substantial anticompetitive effect that harms
consumers in the relevant market,” then “the burden
shifts to the defendant to show a procompetitive rationale for the restraint.” Ohio v. Am. Express Co., 138
S. Ct. 2274, 2284 (2018). Once the defendant does so,
“the burden shifts back to the plaintiff to demonstrate
4 For the reasons provided, this Court should not read Actavis to
impose an illogical rule that forbids any consideration of patent
strength when evaluating the effect of a patent litigation settlement on competition. But if the Court believes that Actavis actually dictates the absurd outcome reached below—in which a generic
manufacturer is being penalized for striking a deal to get on the
market before valid patents are set to expire—then it should consider whether to limit or change that holding.

12
that the procompetitive efficiencies could be reasonably
achieved through less anticompetitive means.” Id.
This third step “does not require businesses to use anything like the least restrictive means of achieving legitimate business purposes,” as courts (and agencies)
“should not second-guess degrees of reasonable necessity.” NCAA, 141 S. Ct. at 2161 (quotation marks omitted).
The Fifth Circuit here did not dispute that Impax
had shown its settlement benefited competition by facilitating early generic entry, but it accepted the FTC’s
conclusion at the third step that this benefit could have
been achieved without any alleged payment. Pet. App.
21-22. Although the Fifth Circuit styled its analysis as
“case-specific” and driven by deference to agency factfinding, id. at 28-30 & n.10—notwithstanding that the
ALJ who actually heard the evidence came out the other way, id. at 9-10—its reasoning extends to pharmaceutical patent settlements across the board. As Impax
explains (at 28-30), the Fifth Circuit relied on generalities about “industry practice” and “economics” to endorse the FTC’s surmise that because it is sometimes
possible to settle a patent dispute by agreeing to an early entry date without a payment, it must always be possible. Pet. App. 28-29. But as this case shows, the
FTC’s simplistic assumption that a brand and generic
can always agree to a compromise on the generic entry
date without adding other terms ignores that real-world
negotiation dynamics are often more complicated than
generalizations allow.
In fact, as both courts and commentators have recognized, “[a] negotiation is more likely to be successful
when there are several issues to be resolved (‘integrative bargaining’) rather than just one, because it is eas-

13
ier in the former case to strike a deal that will make
both parties feel they are getting more from peace than
from war.” Duffy Tool & Stamping, L.L.C. v. NLRB,
233 F.3d 995, 998 (7th Cir. 2000). 5 Here, for example,
the record evidence shows that the parties had reached
an impasse in bargaining over the entry date. In particular, Endo refused to consider dates before January
2013 because it was focused on securing lead time to
transition the market to a new version of Opana before
the onset of generic competition. 6 The terms providing
Impax with an exclusive license to market a generic
version of Opana and a credit for sales lost that might
result from Endo’s commercial strategy—the exchanges
of value challenged by the FTC here—were thus essential to the parties’ ability to bridge the gap between
them and settle their dispute.
The FTC “refused to credit” evidence that Endo was
unwilling to agree to an earlier entry date, Pet. App. 27,
but not on the basis of anything affirmative. Rather,
the FTC (and the Fifth Circuit) relied on the fact that
Endo had not communicated an express red line. Pet.
App. 28. As Impax explains, this holding is not plausibly “case-specific,” because it creates an unrealistic
clear-statement rule for settlement negotiations that
makes it effectively impossible to show that a payment
was needed to facilitate an early-entry settlement. Pet.
29. The result is to transform the third step of the rule
of reason into an insurmountable least-restrictiveSee also Roger Fischer, William Ury & Bruce Patton, Getting to
Yes 58-81 (3d ed. 2011); Howard Raiffa et al., Negotiation Analysis:
The Science and Art of Collaborative Decision Making 17-19, 402
(2002); Michael L. Moffit, Pleadings in the Age of Settlement, 80
Ind. L. J. 727, 744-745 & nn. 67-69 (2005).

5

6

See Pet. 9-11; Pet. App. 165 ¶116, 172 ¶147, 175 ¶156.

14
means test—a “recipe for disaster” this Court has rejected. NCAA, 141 S. Ct. at 2161.
At a minimum, the FTC’s reasoning (which the Fifth
Circuit endorsed) improperly inverts the burden of
proof. The FTC presumes that a settlement for an earlier entry date would have been possible without a
payment, leaving the defendant in the position of trying
to disprove a counterfactual. Once again, this approach
reinstates a “quick look” review in substance, directly
contradicting the Court’s holding in Actavis.
II. Because the Fifth Circuit and FTC’s Presumption of Illegality Will Discourage Procompetitive Settlements and Harm Consumers, Immediate Review Is Warranted.
The sharp conflict between the decision below and
Actavis is reason enough for this Court’s intervention.
But the problems with the Fifth Circuit and FTC’s approach are compounded, and the need for review is
heightened, by developments since Actavis was decided.
At the FTC’s urging, lower courts have steadily expanded Actavis’s reach, to the point that some courts
treat any consideration that generic manufacturers secure in settlement other than a non-exclusive license as
an illicit payment that risks antitrust liability. With so
many settlement forms now subject to second-guessing
under the antitrust laws, it is all-the-more important
for this Court to prevent the FTC-led evisceration of Actavis’s rule-of-reason standard. By contrast, if the
Court leaves the Fifth Circuit’s decision in place, manufacturers of generic medicines will be deterred from entering settlements with early generic entry dates, despite their benefits to consumers, because they will reasonably fear exposure to liability under the FTC’s

15
quick-look-style test. And generic manufacturers, faced
with fewer opportunities to settle and ever-increasing
litigation costs, will invariably bring fewer patent challenges in the first place, ultimately resulting in fewer
generic medicines on the market.
A.

Lower Courts Have Expanded the
Types of Patent Settlements Subject
to Antitrust Scrutiny.

In Actavis, the alleged “payment” at issue was a
straightforward cash transfer from the brand company
to the generic. 570 U.S. at 145; see also id. at 152 (describing the challenged settlements as providing “money” to the generic challenger to drop its patent challenge). But as the Chief Justice predicted, this line has
not held, with courts reasoning that “if antitrust scrutiny is invited for … cash payments, it may also be required for ‘other consideration’ and ‘alternative arrangements.’” Id. at 173 (Roberts, C.J., dissenting).
Indeed, in the wake of Actavis, the FTC quickly
pushed for a maximalist view of what qualifies as a
payment, 7 and several lower courts have obliged, holding that a payment exists whenever there is a purported “unexplained large transfer of value from the patent
holder to the alleged infringer.” King Drug Co. of Florence, Inc. v. SmithKline Beecham Corp., 791 F.3d 388,
403 (3d Cir. 2015) (emphasis added). 8 This logic has no
E.g., Brief of FTC as Amicus Curiae at 19-23, In re Lipitor Antitrust Litig., No. 14-2071 (1st Cir. filed June 25, 2015); Brief of FTC
as Amicus Curiae in Support of Plaintiffs-Appellants at 22-28,
King Drug Co. of Florence v. SmithKline Beecham Corp., No. 141243 (3d Cir. filed Apr. 28, 2014).

7

The Third Circuit’s reasoning about what counts as a “payment”
under Actavis is distinct from the aspect of the decision cited by

8

16
obvious stopping point. Under it, “any settlement
agreement can be characterized as involving ‘compensation’ to the defendant,” since a defendant typically
“would not settle unless [it] had something to show for
the settlement.” Asahi Glass Co. v. Pentech Pharms.,
Inc., 289 F. Supp. 2d 986, 994 (N.D. Ill. 2003) (Posner,
J.). It is thus unsurprising that lower courts have subjected a wide variety of settlement terms to antitrust
review, disregarding arguments that such terms do not
present the same risk to competition as the cash payments in Actavis. Examples include:
• Exclusive-license agreements that let generic
companies enter the market early in an exclusive
arrangement; 9
• Non-exclusive license agreements with variable
royalty rates, which supposedly incentivize exclusivity; 10
• Supply agreements for unrelated drug products; 11
• Releases of damage claims from separate litigations between the same parties; 12
• “Most favored entry” clauses that promote competition by allowing a generic manufacturer to

Impax, which endorses consideration of patent strength in the
rule-of-reason analysis. See Pet. 3, 24.
9

King Drug Co., 791 F.3d at 407.

In re Intuniv Antitrust Litig., 496 F. Supp. 3d 639, 660-662 (D.
Mass. 2020).
10

11

FTC v. AbbVie Inc., 976 F.3d 327, 356-357 (3d Cir. 2020).

12

In re Lipitor Antitrust Litig., 868 F.3d 231, 253 (3d Cir. 2017).

17
accelerate its market entry if another generic
company gains approval and launches itself. 13
Combining this unbounded definition of an Actavis
“payment” with the FTC’s de facto presumptions of illegality will impose a significant barrier to patent settlements, inhibiting companies from striking deals that
get generic medicines to patients before the brand patents expire.
B.

Settlements Are a Crucial Tool for
Generic Manufacturers to Clear
Through the Patent Estates Brands
Have Erected.

If not reversed by this Court, the FTC’s quick-look
style of review will chill patent settlements at a time
when they are more important and necessary than ever. In recent years, brand manufacturers have aggressively erected large patent estates that threaten timely
generic and biosimilar market entry. Biosimilars
Council, Failure to Launch: Patent Abuse Blocks Access
to Biosimilars for America’s Patients, 5 (June 2019),
https://biosimilarscouncil.org/wp-content/uploads/2019/
10/Failure-to-Launch-Part-1.pdf (“Failure to Launch”).
Patent estates are an accumulation by a brand manufacturer of many, often dozens of, patents for the same
drug, sometimes at the end of the drug’s product lifecycle, shortly before the original patent covering the drug
would expire. These additional patents can extend the

In re Xyrem (Sodium Oxybate) Antitrust Litig., No. 20-MD02966-LHK, 2021 WL 3612497, at *23-25 (N.D. Cal. Aug. 13,
2021).
13

18
brand’s monopoly on the drug far beyond that granted
by the original patent. Failure to Launch, supra, at 5.14
These large patent estates are becoming increasingly common. In recent years, at least 78% of patents in
the Orange Book cover existing drugs, not new ones;
and more than 70% of the top 100 best-selling drugs are
guarded by monopolies extending beyond the original
patent’s protection. Davis Statement, supra, at 5. Consider, for example, Humira, a blockbuster biologic medicine that has been on the market for decades. As of
2019, the brand manufacturer of Humira held 136 patents on the product—including 75 new patents that it
applied for and obtained in the three years before the
original compound patent for the product expired. 15
Although the Humira example is extreme, the general
phenomenon is common. One study found that the
brand manufacturers for the 12 top-grossing drugs in
2017 had accumulated 848 patents (71 per drug) blocking competition for an average of 38 years. 16

14 See also, e.g., FDA, Press Release, Remarks from FDA Commissioner Scott Gottlieb, M.D., as prepared for delivery at the Brookings Institution on the release of the FDA’s Biosimilars Action Plan
(July 18, 2018), www.fda.gov/news-events/press-announcements
/remarks-fda-commissioner-scott-gottlieb-md-prepared-deliverybrookings-institution-release-fdas (expressing concern that “patent
thickets that are purely designed to deter the entry of approved
biosimilars are spoiling … competition”).

Sy Mukherjee, Protect at all costs: How the maker of the world’s
bestselling drug keeps prices sky-high, FORTUNE (July 18, 2019).
15

I-MAK, Overpatented, Overpriced: How Excessive Pharmaceutical Patenting Is Extending Monopolies and Driving up Drug Prices
6 (2018), www.i-mak.org/wp-content/uploads/2018/08/I-MAKOverpatented-Overpriced-Report.pdf.

16

19
These types of patent estates can make the price of
market entry prohibitive. Even if the brand’s patent
estate turns out to be meritless, manufacturers of generics and biosimilars still face years of cripplingly expensive litigation to prove invalidity in court. These
lawsuits are infamously long and hard. Ohio Willow
Wood Co., 629 F.3d at 1376-1377 (Moore, J., concurring). One study estimates the cost of litigation to be $3
million per patent. 17 Costs are imposed on patients and
consumers, too. As of September 2021, a full 11 of the
30 biosimilars approved by the FDA remain off the
market, 18 and AAM’s Biosimilars Council found that, as
of June 2019, “delayed entry of biosimilars due to patenting has cost the U.S. health care system an
astounding $7.6 billion in lost savings since 2015,”
Failure to Launch, supra, at 4.
Given the escalating complexity and cost of litigating these dense patent estates, it is essential for manufacturers of generic and biosimilar medicines to have
the flexibility to bargain effectively for comprehensive
deals that guarantee an early launch—providing licenses that cover future patents and agreeing to terms
waiving parallel regulatory exclusivities. These are
concessions that a generic manufacturer could not win
by litigating its patent case to judgment. Davis Statement, supra, at 8. And because such terms are extremely valuable to a generic company, the FTC and
some lower courts could theoretically try to characterize
Anne S. Layne-Farrar, The Cost of Doubling Up: An Economic
Assessment of Duplication in PTAB Proceedings and Patent Infringement Litigation, 10 LANDSLIDE 1 (2018).
17

See Big Molecule Watch: FDA Approvals, Goodwin Procter (last
updated Sept. 26, 2021), https://www.bigmoleculewatch.com/fdaapproved-ablas/.
18

20
them as “payments.” See Part II.A, supra. But such
settlements are a critical tool for bringing generic and
biosimilar medicines to market, given the overwhelming difficulty and expense of litigating endless patents
on a single product.
The FTC’s resurrection of “quick look” review makes
these deals harder to achieve by looking past the procompetitive value of comprehensive settlements and
punishing generic manufacturers for finding creative
solutions to patent disputes that guarantee early consumer access to generic and biosimilar medicines. Once
again, this case is the perfect example. The settlement
under review netted Impax a license protecting it from
claims of infringement against all of Endo’s relevant
patents, including future patents—patents that were
successfully asserted against other generic companies
to keep them off the market for another decade. Pet.
26. But the FTC and the Fifth Circuit discounted this
undisputed boon to patients by ignoring evidence of patent strength and presuming, contrary to all available
evidence, that the parties could have settled without a
brand-to-generic transfer of value. See Part I, supra.
Absent a course correction by this Court, the FTC’s approach will deter generic and biosimilar companies
from entering these procompetitive settlements in the
future, and in turn deter them from brining patent
challenges in the first place. The public will bear the
ultimate cost in the form of higher prices and reduced
access to critical medicines.
*****
The FTC has reinstated a presumption of illegality
that this Court rejected in Actavis, and the Fifth Circuit
blessed that decision. Because the FTC’s ongoing departure from this Court’s precedent will substantially

21
chill procompetitive settlements that enable early access to lower-cost generic and biosimilar medicines, this
Court should grant review.
CONCLUSION
The petition for certiorari should be granted.
Respectfully submitted.
JEFFREY K. FRANCER
KARIN HESSLER
ASSOCIATION FOR
ACCESSIBLE MEDICINES
601 New Jersey Ave., NW
Washington, DC 20001
WILLIAM E. EVANS
GOODWIN PROCTER LLP
100 Northern Ave.
Boston, MA 02210
October 15, 2021

BRIAN T. BURGESS
Counsel of Record
WILLIAM M. JAY
GOODWIN PROCTER LLP
1900 N St., NW
Washington, DC 20036
bburgess@goodwinlaw.com
(202) 346-4000

